U.S. Department of Labor                                 Office of Inspector General
                                                         200 Constitution Avenue, N.W.
                                                         Room S5512 – Office of Audit
                                                         Washington, D.C. 20210

December 2, 2005

Faye McCreary
Financial Management Services
Department of the Treasury
3700 East-West Highway
Room 509B
Hyattsville, MD 20782

Dear Ms McCreary:

Enclosed is the Independent Accountant’s Report on the Application of Agreed-Upon Procedures, for the
Federal Intragovernmental Activity and Balances (Report No. 22-06-005-13-001). The Office of Inspector
General contracted with the independent certified public accounting firm of R. Navarro & Associates, Inc.,
CPAs (RNA) to perform the agreed-upon procedures. The contract required that this report be prepared
as required by the Treasury Financial Manual, Part 2, Chapter 4700, Section 4705.75.

We reviewed RNA's report and related documentation and inquired of its representatives. However, RNA
is responsible for the enclosed agreed-upon procedures and the conclusions expressed in the report.
Our review disclosed no instances where RNA did not comply, in all material respects, with attestation
standards generally accepted in the United States of America (GAAS), Government Auditing Standards
(GAS), and Office of Management and Budget audit requirements.

If you have any questions, please contact Michael McFadden, Office of Accountability Audits, on (202)
693-5164.


Sincerely,




ELLIOT P. LEWIS
Assistant Inspector General
 for Audit

Enclosure


cc:     Mr. Samuel T. Mok
        Chief Financial Officer
        Department of Labor


        Gary T. Engel
        Director, Financial Management and
        Assurance
        Government Accountability Office
                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER


Office of Inspector General—Office of Audit



                                              INDEPENDENT ACCOUNTANTS’ REPORT ON
                                              AGREED-UPON PROCEDURES FOR FEDERAL
                                              INTRAGOVERNMENTAL ACTIVITY AND
                                              BALANCES

                                              For the Year Ended September 30, 2005

                                               This audit report was prepared by R. Navarro & Associates, Inc., under
                                               contract to the U.S. Department of Labor, Office of Inspector General,
                                               and by acceptance, it becomes a report of the Office of Inspector
                                               General.



                                                                        _____________________________________
                                                                                Assistant Inspector General for Audit




                                                                                   Date Issued: December 2, 2005
                                                                                   Report Number: 22-06-005-13-001
                                                                                        Agreed-Upon Procedures Report




Table of Contents
INDEPENDENT ACCOUNTANTS' REPORT ON THE APPLICATION OF AGREED-
UPON PROCEDURES.................................................................................................... 3
EXHIBITS........................................................................................................................ 5
   Exhibit I....................................................................................................................... 7
   Exhibit II.................................................................................................................... 11
   Exhibit III................................................................................................................... 15
   Exhibit IV .................................................................................................................. 17
APPENDICES ............................................................................................................... 19
   Acronyms and Abbreviations ................................................................................. 21




Prepared by R. Navarro & Associates, Inc. for the                                                                                  1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                        Agreed-Upon Procedures Report




    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                       Prepared by R. Navarro & Associates, Inc., for the
                   U.S. Department of Labor—Office of Inspector General
                                        Report Number: 22-06-005-13-001
                                                                  Agreed-Upon Procedures Report




        INDEPENDENT ACCOUNTANTS' REPORT ON THE APPLICATION OF
                      AGREED-UPON PROCEDURES

Director, Financial Reports Division
Financial Management Services
Department of the Treasury


We have performed the procedures described at Exhibit I, which were agreed to by the Department
of the Treasury's Financial Management Service (FMS), the U. S. Government Accountability Office
(GAO), and the Office of Management and Budget (OMB) as stated in the FMS Agency Reporting
Requirements for the Financial Report of the United States Government guidance, solely to assist
FMS in the preparation of, and GAO in the audit of the consolidated financial statements of the U.S.
Government as of and for the year ended September 30, 2005. The Department of Labor's
management is responsible for the proper accounting, presentation and reporting of its consolidated
financial statements and reporting of information to FMS.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and the Government Auditing
Standards, issued by the Comptroller General of the United States. The sufficiency of these
procedures is solely the responsibility of FMS, GAO and OMB. Consequently, we make no
representations regarding the sufficiency of the procedures described in Exhibit I, either for the
purpose for which this report has been requested or for any other purpose.

The procedures we performed and our associated findings are presented at Exhibit I, Fiscal Year
2005 IG Agreed-Upon Procedures Report for Federal Intra-governmental Activity and Balances.

We were not engaged to, and did not perform an audit of the matters addressed herein, the objective
of which would be the expression of an opinion on such information. Accordingly, we do not express
such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Department of Labor, OMB, FMS
and GAO and is not intended to be, and should not be, used by those who have not agreed to the
procedures and taken responsibility for the sufficiency of the procedures for their purposes.




December 2, 2005


Prepared by R. Navarro & Associates, Inc., for the                                                 3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                        Agreed-Upon Procedures Report




    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




4                       Prepared by R. Navarro & Associates, Inc., for the
                   U.S. Department of Labor—Office of Inspector General
                                        Report Number: 22-06-005-13-001
                                                       Agreed-Upon Procedures Report




Exhibits




Prepared by R. Navarro & Associates, Inc., for the                                5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                         Agreed-Upon Procedures Report




    PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                        Prepared by R. Navarro & Associates, Inc., for the
                    U.S. Department of Labor—Office of Inspector General
                                         Report Number: 22-06-005-13-001
                                                             Agreed-Upon Procedures Report


                                                                                EXHIBIT I
Agency Name               Department of Labor
2-Digit Agency Code       16

INSTRUCTIONS: Indicate your findings upon                            Findings
completion of each procedure. Deliver this IG
Agreed-Upon Procedures Report on Closing
Package Intragovernmental Activity and
Balances, as well as copies of any internal
control findings, to your agency’s CFO, FMS, and
GAO no later than December 2, 2005.
(Please refer to the requirements stated in
subsection 4705.75 of the TFM – IG Agreed Upon
Procedures for Federal Intragovernmental
Activity and Balances)
Procedure 1

Obtain all Intragovernmental Closing Package Line         We obtained all the
Item reports from Module 4 of GFRS for                    Intragovernmental Closing
intragovernmental activity/balances supporting the        Package Line Item reports from
Closing Package Reclassified Balance Sheet                Module 4 of GFRS without
Federal Assets and Liabilities, Reclassified              exception.
Statement of Net Cost’s Federal Gross Cost and
Federal Earned Revenue, and Reclassified
Statement of Changes in Net Position’s Federal
Nonexchange Revenue and Budgetary and Other
Financing Sources.
Procedure 2

Compare the Intragovernmental Closing Package             We compared the Intra-
Line Item reports from Module 4 of GFRS for               governmental Closing Package
intragovernmental activity/balances by Federal line       Line Item reports from Module 4
item totals and/or trading partner activity/balances to   of GFRS to the general ledger
the agency’s general ledger and the RSI data from         and the RSI data from the
the audited financial statements. Identify any            audited Financial Statements.
differences.
                                                          We noted no differences
                                                          between the Module 4 and the
                                                          general ledger. In addition, we
                                                          noted no differences between
                                                          the Module 4 and the RSI data.




Prepared by R. Navarro & Associates, Inc., for the                                          7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                                              Agreed-Upon Procedures Report


Procedure 3

Compare trading partner activity/balances from            We compared the RSI
Intragovernmental RSI schedules in agency’s               schedules in the audited
audited financial statements to the agency’s              financial statements to the
Intragovernmental Closing Package vs 4th Quarter          agency’s Intra-governmental
Submission Comparative Data Report and the                Closing Package vs 4th Quarter
Intragovernmental Closing Package Material                Submission Comparative Data
Differences/ Status of Disposition Certification          Report.
Report (Section II of the CFO Representations). For
items where agency reporting differences exist,           We noted no differences.
compare the explanations to supporting
documentation and identify any discrepancies.             We also compared the agency’s
                                                          Intra-governmental Closing
                                                          Package vs 4th Quarter
                                                          Submission Comparative Data
                                                          Report and the Intra-
                                                          governmental Closing Package
                                                          Material Differences/ Status of
                                                          Disposition Certification Report.

                                                          Refer to Exhibit III for an
                                                          explanation of the variances in
                                                          the Closing Package versus the
                                                          4th quarter submission.

Procedures 4

On November 29, 2005, FMS will generate and
distribute the Intragovernmental Comparative
Closing Package Explanation of Differences Report
for Intragovernmental activity/balances to agency
IGs. Agency IGs/Auditors will use this report to:

    (1)    Compare the differences between the            Refer to Exhibit II for the detail
          agency and its trading partners by reciprocal   explanations of the differences.
          category/line-item from FMS’
          Intragovernmental Comparative Closing
          Package Explanation of Differences Report
          to explanations from the agency supporting
          documentation. For items where agency
          reporting differences exist, compare the
          explanations to supporting documentation
          and identify any discrepancies.



8                                             Prepared by R. Navarro & Associates, Inc., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-06-005-13-001
                                                              Agreed-Upon Procedures Report




   (2) Identify any inconsistencies in amounts or          Refer to Exhibit II for the detail
       explanations between FMS’                           explanations of the differences
       Intragovernmental Comparative Closing
       Package Explanation of Differences reports
       and agency’s supporting documentation.

   (3) In the event of non-reporting by trading            Refer to Exhibit II for the detail
       partners, as indicated in the footer section of     explanations of the differences
       FMS’ Intragovernmental Comparative
       Closing Package Explanation of Differences
       reports, identify whether the difference is
       due to a non-reporting partner and do not
       proceed further with the review of the
       differences.
Procedure 5

Identify and include copies of internal control findings   There were no internal control
related to intragovernmental activities from the           findings related to intra-
financial statements audit, including items cited in       governmental activity.
the management letter. Also, identify and report
auditor-proposed intragovernmental adjustments that        Exhibit IV shows the passed
were waived by the agency.                                 adjustment to the Audited
                                                           Financial Statements of the
                                                           Department of Labor. Each
                                                           transaction is coded as G for
                                                           Government and NG for Non-
                                                           Government.




Prepared by R. Navarro & Associates, Inc., for the                                              9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                          Agreed-Upon Procedures Report




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                        Prepared by R. Navarro & Associates, Inc., for the
                     U.S. Department of Labor—Office of Inspector General
                                          Report Number: 22-06-005-13-001
                                                               Agreed-Upon Procedures Report


                                                                                  EXHIBIT II

                  Intragovernmental Reporting & Analysis System
                Schedule of Comparative Status of Disposition Report
                                 Fiscal Year 2005
                      Reporting Entity 16 Department of Labor



Trading Partner      RC Code        Reported   Trading Partner          Difference
15 Justice           24             $1,565,000 $103,150,000             $101,585,000


Finding

Based on our review of the documentation, we provide the following explanation
of the variance:

The Department of Labor contacted the trading partner and was notified that the trading
partner had incorrectly classified $59,878,000 included in their reported amount. This
reduced the reported amount to $43,272,000 and the difference to $41,707,000 rather
than the $101,585,000 reported.

DOL misclassified a payment to Justice of $23,200,000 as non-governmental. DOL will
make the appropriate correction. In addition, in prior years DOL expensed the
advances made to the Justice Department. Justice has approximately $30.6 million as
an advance in Reciprocal Code 23 on funds received from DOL. DOL does not have an
advance balance from Justice in Reciprocal Code 23 because DOL expensed the
payments in the year the payment was made. DOL will adjust their general ledger in FY
2006 to reflect the advance of $30.6 million

Department of Justice also recorded revenue of $10 million from the prior year advance
as revenue in Reciprocal Code 24. Since DOL expensed the advances when the
payment was made it has no offsetting expense in FY 2005.

Since DOL will make the correction in FY 2006 for the advance of $30.6 million, this
difference should not exist in the future. In addition, DOL will ensure that this activity is
properly coded as a governmental transaction.

 As mentioned above, the net difference to Reciprocal Code 24 was adjusted to
$41,707,000. With the two items mentioned above, of which we concur with, the
$23,200,000 and the $10,000,000, DOL has stated that they will reflect the transactions
as a governmental transactions, the net remaining difference after these two items is
reduced to $8,507,000. DOL stated that they will continue to work with the Trading
Partner to identify the remaining difference.


Prepared by R. Navarro & Associates, Inc., for the                                          11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                                            Agreed-Upon Procedures Report




Trading Partner   RC Code         Reported         Trading Partner        Difference
18 Postal Service 21              $296,418,000     $240,000,000           $56,418,000


Finding

Based on our review of the documentation, we provide the following explanation
of the variance:

The Reciprocal Code 21 balance of @96,418,000 is comprised of UI receivable
amounting to $$22 million and FECA receivable of $274 million. According to DOL
Management, the Postal Service uses a different method of calculating the FECA
accrual. Discussions have been held with Postal Service, however, according to DOL
Management, the Postal Service concluded that they will continue to use their accrual
methodology which is different from the method used by DOL. As long as the two
entities continue using different methods of calculating the FECA accrual, a difference
will exist. The receivable has been audited at the DOL level and invoiced to Postal
Service.


Trading Partner  RC Code          Reported         Trading Partner        Difference
36 VA           21                $362,389,000       $357,243,581         $5,145,419


Finding

Based on our review of the documentation, we provide the following explanation
of the variance:

The difference of $5,145,419 represents the accounts receivable recoded by DOL as
due from VA for UCFE benefits (unemployment benefits) paid by DOL for ex-VA
employees. The $5,145,419 represents the receivable due from VA as of September
30, 2005. DOL is not certain as to why VA is not reflecting the UCFE receivable as a
governmental transaction. VA is also not recording the benefit expense as a
governmental transaction. Refer below for the explanation of the differences between
VA and DOL for Reciprocal Code 26. In addition, the Trading Partner misclassified the
$357,243,581 in GFRS and subsequently corrected the error.




12                                          Prepared by R. Navarro & Associates, Inc., for the
                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-005-13-001
                                                              Agreed-Upon Procedures Report


Trading Partner      RC Code        Reported           Trading Partner      Difference
36 VA                26             $166,880,000         $155,294,585       $11,585,415


Finding

Based on our review of the documentation, we provide the following explanation
of the variance:

The $11,585,415 difference represents the reimbursable revenue for the annual
reimbursements by VA to DOL for benefits paid plus the net change in the accounts
receivable due from VA. DOL is not certain as to why VA is not showing the benefit
expense as a governmental transaction. In addition, the Trading Partner misclassified
the $155,294,585 to TP 00 in error and subsequently corrected the error.


Trading Partner    RC Code Reported             Trading Partner          Difference
60 - Railroad Board    19   $0                    $97,161,821            97,161,821


Finding

Based on our review of the documentation, we provide the following explanation
of the variance:

The Department of Labor records the Railroad Retirement Board’s equity in the
Unemployment Trust as a liability and as a governmental transaction. According to
management, meetings with the Board, FMS, and OMB resulted in agreement that the
equity would be shown as governmental liability due to the Railroad Retirement Board
and no other activity would be reflected as governmental.

The Railroad Retirement Board reported $97,161,821 in SGL 5755 as a Trust Fund
Non-expenditure transfer out. DOL does show, in their general ledger, in SGL 5765 as
a Trust Fund Non-expenditure transfer out a similar amount. However, DOL only
reports the Board’s equity in the Trust Fund as a governmental transactions as agreed
to between the parties mentioned above. The Railroad Retirement Board mentioned
that they have contacted FMS for a proper solution. As mentioned above FMS has
already concurred with DOL’s position.




Prepared by R. Navarro & Associates, Inc., for the                                        13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                          Agreed-Upon Procedures Report




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                        Prepared by R. Navarro & Associates, Inc., for the
                     U.S. Department of Labor—Office of Inspector General
                                          Report Number: 22-06-005-13-001
                                                           Agreed-Upon Procedures Report


                                                                             EXHIBIT III

AUP Procedure 3 – Compare the trading partner activity/balances as reported in the
Closing Package and the 4th quarter Submission Comparative Data Report.

FMS identified one transaction as material:

Trading Reciprocal Closing             4th Qtr         Reporting
Partner Code       Package             Submission      Difference

47        22             $10,667,000 $6,861,221        $3,805,779


Finding

This transaction was originally reported as intra-governmental but should have been
recorded as a non-governmental transaction. DOL subsequently corrected the
transaction and reclassified it in the general ledger as non-governmental.

While FMS did not require an explanation of the following transaction, we felt a
discussion of the difference is warranted because of the large difference:


Trading   Reciprocal Closing   4th Qtr                 Reporting
Partner   Code     Package   Submission                Difference
12        28    $116,762,000   $(110,781,181)          $227,543,181
14        28    $ 64,521,000   $( 62,391,933)          $126,912,933


Finding

In the fourth quarter submission, DOL netted the transfers-in and transfers-out.
According to management, FMS subsequently instructed DOL to separate the transfers-
in from the transfers-out to properly classify the trading partner activity. DOL, in
entering the information for the closing package, complied with FMS’s request and
showed the transfers-in separate from the transfers-out. The amounts from the Closing
Package and the 4th Quarter Submission are the same; however, the Closing Package
is showing the absolute value of the transfers-in and out and the fourth quarter
submission shows the amounts netted to SGL 3102 transfers-in which is a negative
account




Prepared by R. Navarro & Associates, Inc., for the                                    15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                          Agreed-Upon Procedures Report




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                        Prepared by R. Navarro & Associates, Inc., for the
                     U.S. Department of Labor—Office of Inspector General
                                          Report Number: 22-06-005-13-001
                                                               Agreed-Upon Procedures Report


                                                                                   EXHIBIT IV

                                   USDOL
                  CONSOLIDATED FINANCIAL STATEMENTS AUDIT
                     PROPOSED AND PASSED ADJUSTMENTS
                                  30-SEP-05

                        INTRAGOVERNMENTAL TRANSACTIONS


       GOV OR F/S
F/S    NON-GOV LINE ITEM         ADJ NO.   GL ACCT DEBIT            CREDIT       NET

Unemployment Trust Fund adjustment between BPD and DOL:

B/S    G          FwT                 16   1013        $1,220,593                 $1,220,593
SBR    G          UDO                 16   4620        $1,220,593                 $1,220,593
SBR    G          Exp. Auth.          16   4902                     $1,220,593   $(1,220,593)
SNC    G          Inc. Maint.         16   5760                     $1,220,593   $(1,220,593)

Carry-forward of FY 2004 Passed Adjustments for:

FEMA (DHS) Trading Partner 70

SNC    G          Reim. Rev.          20   5200                   $57,960,000    $(57,960,000)
B/S    G          Prior Period   20                    $57,960,000                $57,960,000

FUTA Taxes Trading Partner 99

SCNP G            Emp. Taxes     20        5800                   $17,092,061    $(17,092,061)
B/S  G            Prior Period   20                    $17,092,061               $17,092,061




Prepared by R. Navarro & Associates, Inc., for the                                              17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                          Agreed-Upon Procedures Report




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                        Prepared by R. Navarro & Associates, Inc., for the
                     U.S. Department of Labor—Office of Inspector General
                                          Report Number: 22-06-005-13-001
                                                       Agreed-Upon Procedures Report




Appendices




Prepared by R. Navarro & Associates, Inc., for the                               19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
                                          Agreed-Upon Procedures Report




     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                        Prepared by R. Navarro & Associates, Inc., for the
                     U.S. Department of Labor—Office of Inspector General
                                          Report Number: 22-06-005-13-001
                                                       Agreed-Upon Procedures Report


                                                                      APPENDIX A
ACRONYMS AND ABBREVIATIONS


BPD           Bureau of Public Debt
CFO           Chief Financial Officer
DOL           Department of Labor
FACTS I       Federal Agencies’ Centralized Trial-Balance System
FMS           Financial Management Service, Department of Treasury
GAO           Government Accountability Office
GFRS          Government-wide Financial Report System
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OMB           Office of Management and Budget
RSI           Required Supplemental Information
SGL           Standard General Ledger
TFM           Treasury Financial Manual




Prepared by R. Navarro & Associates, Inc., for the                               21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-005-13-001
